TN

Q@OQCKLE

2311 Douglas Street L ega l Brie f s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-202
SOLOMON McLEMORE,
Petitioner,

ve
CITY OF SHORELINE, WASHINGTON,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 15th day of November, 2019, send
out from Omaha, NE | package(s) containing 3 copies of the BRIEF IN OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were
plainly addressed to the following:

SEE ATTACHED
To be filed for:
SARAH ROBERTS PHILIP J. BURT
Attorney At Law Counsel of Record
17553 15th Ave. NE BURI FUNSTON
Shoreline, WA 98155 MUMFORD & FURLONG
(206) 364-2965 1601F St.

Bellingham, WA 98225
(360) 752-1500
philip@burifunston.com

Subscribed and sworn to before me this 15th day of November, 2019. .
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . ,

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 39008
SERVICE LIST

David C. Iannotti
Counsel of Record
Stewart MacNichols Harmell, Inc., P.S.
655 West Smith St., Ste. 210
Kent, WA 98032
253-859-8840
david@sbmhlaw.com
Counsel for Petitioner
